Page 2 – Charlene Frizzera


In its comments on our draft report, the State agreed with our recommendations and described
corrective actions that it planned to take.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620
or through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01015 in
all correspondence.


Attachment
Page 2 – Richard F. Daines, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF FAMILY PLANNING
   CLAIMS SUBMITTED BY
   SELECTED PROVIDERS
UNDER THE NEW YORK STATE
    MEDICAID PROGRAM




                    Daniel R. Levinson
                     Inspector General

                     September 2009
                      A-02-09-01015
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

The Federal share of the Medicaid program is determined by the Federal medical assistance
percentage (FMAP). During our audit period (April 1, 2007, through September 30, 2008), the
FMAP in New York State was 50 percent. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10
and 433.15 provide enhanced 90-percent Federal reimbursement for family planning services.
Pursuant to section 4270 of the CMS “State Medicaid Manual,” family planning services prevent
or delay pregnancy or otherwise control family size.

In a prior audit report entitled “Review of Clinic and Practitioner Claims Billed as Family
Planning Services Under the New York State Medicaid Program” (A-02-07-01037, November
2008), we made two procedural recommendations to the State that providers only bill as family
planning those services directly related to family planning and ensure that edits within their
Medicaid Management Information System appropriately identify claims that are eligible for
enhanced 90-percent Federal reimbursement. In its comments on our draft report, the State
generally concurred with these two recommendations.

OBJECTIVE

Our objective was to determine whether the State properly claimed enhanced 90-percent Federal
reimbursement for family planning claims submitted by selected providers.

SUMMARY OF FINDINGS

New York State improperly claimed enhanced 90-percent Federal reimbursement for family
planning claims submitted by selected providers. Of the 105 claims in our sample, 50 qualified
as family planning services and could be claimed at the enhanced 90-percent Federal
reimbursement rate. However, the remaining 55 could not be claimed as family planning
services. Of those 55 claims, 51 were for services unrelated to family planning and 4 lacked
documentation. Based on our sample results, we estimate that the State received $3,773,506 in
unallowable Federal Medicaid reimbursement. This overpayment occurred because selected
providers incorrectly claimed services as family planning and the State’s Medicaid Management
Information System (MMIS) edit routines did not adequately identify claims unrelated to family
planning.




                                                i
RECOMMENDATIONS

We recommend that the State:

   •   refund $3,773,506 to the Federal Government and

   •   consider the results of this review in its evaluation of our prior recommendations to
       ensure that providers only bill as family planning those services directly related to family
       planning and ensure that MMIS edits appropriately identify claims that are ineligible for
       enhanced 90-percent Federal reimbursement.

NEW YORK STATE COMMENTS

In its comments on our draft report, the State agreed with our recommendations and described
corrective actions that it planned to take. The State’s comments are included in their entirety as
Appendix C.




                                                 ii
                                                     TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Medicaid Program..............................................................................................1
              New York State Medicaid Program...................................................................1
              Medicaid Coverage of Family Planning Services..............................................1
              Medicaid Management Information System......................................................2
              Medicaid Coverage of Abortions.......................................................................2
              Prior Audit .........................................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................3
               Objective ............................................................................................................3
               Scope..................................................................................................................3
               Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ..........................................................................4

          SERVICES UNRELATED TO FAMILY PLANNING................................................5

          NO DOCUMENTATION..............................................................................................5

          CAUSES OF THE OVERPAYMENTS ........................................................................5
               Improperly Coded Claims..................................................................................5
               Inadequate Medicaid Management Information System Edit Routines ............6

          ESTIMATION OF THE UNALLOWABLE AMOUNT ..............................................6

          RECOMMENDATIONS...............................................................................................6

APPENDIXES

          A – SAMPLE DESIGN AND METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES

          C – NEW YORK STATE COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

New York State Medicaid Program

In New York State, the Department of Health (DOH) is the State agency responsible for
operating the Medicaid program. Within the DOH, the Office of Medicaid Management
administers the Medicaid program. DOH uses the Medicaid Management Information System
(MMIS), a computerized payment and information reporting system, to process and pay
Medicaid claims.

The Federal share of the Medicaid program is determined by the Federal medical assistance
percentage (FMAP). During our audit period (April 1, 2007, through September 30, 2008), the
FMAP in New York State was 50 percent.

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age who are eligible under the State plan and who desire such
services and supplies. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and
433.15(b)(2) authorize enhanced 90-percent Federal reimbursement for family planning services.

According to section 4270 of the CMS “State Medicaid Manual” (the manual), family planning
services prevent or delay pregnancy or otherwise control family size. In addition, this section
generally permits an enhanced 90-percent rate of Federal reimbursement for counseling services
and patient education; examination and treatment by medical professionals pursuant to States’
requirements; devices to prevent conception; and infertility services, including sterilization
reversals. The manual further says that an abortion may not be claimed as a family planning
service. Only items and procedures clearly furnished or provided for family planning purposes
may be claimed at the enhanced 90-percent rate of reimbursement.

On January 30, 1991, CMS issued Financial Management Review Guide Number 20 (the guide),
entitled “Family Planning Services,” to the State via Medicaid State Operations Letter 91-9. The
guide states that any procedure provided to a woman known to be pregnant may not be considered
a family planning service reimbursable at the enhanced 90-percent Federal rate of reimbursement.


                                                1
Likewise, tests and procedures performed during pregnancy, regardless of their purpose or intent,
are not considered family planning services eligible for the enhanced 90-percent Federal rate of
reimbursement. Updates to the CMS guide in 1993, 1997, and 2002 contained the same
provisions.

The State’s Medicaid State plan says that family planning services and supplies for individuals
of childbearing age are covered without limitations. The State’s regulations define family
planning services as the offering, arranging, and furnishing of those health services that enable
individuals, including minors who may be sexually active, to prevent or reduce the incidence of
unwanted pregnancies. The regulations state that such services include professional medical
counseling services; prescription drugs; nonprescription drugs and medical supplies prescribed
by a qualified physician, nurse practitioner, or physician’s assistant; and sterilizations. 1

Medicaid Management Information System

Providers enrolled in the Medicaid program submit claims for payment to the State’s MMIS.
The State furnishes to providers an MMIS provider manual that contains instructions for the
proper completion and submission of claims. The provider must complete certain fields on the
claim form to indicate the type of service provided.

The MMIS uses a variety of indicators on the Medicaid claim form to identify family planning
services eligible for enhanced 90-percent Federal reimbursement. These indicators include the
family planning indicator code and sterilization/abortion code. DOH considers all claims with
either a “Yes” or “1” in the family planning indicator field to be related to family planning. If
the service is related to an induced abortion or sterilization, the provider must enter a proper
code in the abortion/sterilization field. 2

All claims marked “Yes” in the family planning indicator field and “0” (Not Applicable) or “F”
(Sterilization) in the abortion/sterilization field are processed for enhanced 90-percent Federal
reimbursement. However, for claims marked “Yes” in the family planning indicator field with a
code other than “0” or “F” in the abortion/sterilization field, the MMIS denies the claim and
returns it to the provider for clarification because an abortion procedure does not qualify as a
family planning service.

Medicaid Coverage of Abortions

Since 1977, Congress has passed Appropriations Acts restricting Federal funding of abortions.
Pursuant to the Supplemental Appropriations and Recessions Act of 1981, P.L. No. 97-12,
Federal funds are available for abortions performed only when the life of the mother would be
endangered if the fetus were carried to term. Pursuant to 42 CFR, part 441, subpart E, Federal
reimbursement at the standard FMAP rate is available for abortions only when a physician has

1
    Official Compilation of Codes, Rules and Regulations of the State of New York, Title 18, § 505.13.
2
Codes for this field are “0” (Not Applicable), “A” (Induced Abortion–Danger to the Woman’s Life), “B” (Induced
Abortion–Physical Health Damage to the Woman), “C” (Induced Abortion–Victim of Rape or Incest), “D” (Induced
Abortion–Medically Necessary), “E” (Induced Abortion–Elective), and “F” (Sterilization).


                                                            2
certified in writing to the Medicaid agency that the life of the mother would be endangered if the
fetus were carried to term.

Prior Audit

In a prior audit report entitled “Review of Clinic and Practitioner Claims Billed as Family
Planning Services Under the New York State Medicaid Program” (A-02-07-01037, November
2008), we determined that the State improperly received $17.1 million in Federal Medicaid
reimbursement for family planning claims submitted by clinics and practitioners. In addition to
the monetary recovery of this amount, our report recommended that the State: (1) reemphasize
to providers that only services directly related to family planning should be billed as family
planning, (2) ensure that MMIS edit routines use all appropriate claim information to identify
claims that are ineligible for enhanced 90-percent Federal reimbursement, and (3) determine the
amount of Federal Medicaid funds improperly reimbursed for claims unrelated to family
planning subsequent to our audit period and refund that amount to the Federal Government. In
its comments on our draft report, the State generally concurred with our recommendations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State properly claimed enhanced 90-percent Federal
reimbursement for family planning claims submitted by selected providers.

Scope

Our audit period covered April 1, 2007, through September 30, 2008. We did not review the
overall internal control structure of the State or the Medicaid program. Rather, we reviewed
only the internal controls that pertained directly to our objective.

We performed fieldwork at DOH’s offices in Albany, New York; the State MMIS fiscal agent in
Rensselaer, New York; and at 13 selected providers’ offices throughout the State from January
2009 through February 2009.

Methodology

To accomplish our objective, we:

   •    reviewed Federal and State laws, regulations, and guidance and the State plan;

   •    held discussions with CMS officials and acquired an understanding of CMS guidance
        furnished to State officials concerning Medicaid family planning claims;

   •    held discussions with State officials to ascertain State policies, procedures, and guidance
        for claiming Medicaid reimbursement for family planning services;



                                                 3
   •   ran computer programming applications at the MMIS fiscal agent, which identified a
       sampling frame of 176,799 selected providers’ claims billed at the enhanced 90-percent
       rate of Federal reimbursement by the State, totaling $19,048,754 ($17,143,041 Federal
       share) for the period April 1, 2007, through September 30, 2008;

   •   selected a stratified random sample of 105 claims from the sampling frame of 176,799
       claims;

   •   obtained and reviewed medical records from 13 selected providers that submitted the 105
       sample claims to make an initial determination as to whether the claimed services were
       related to family planning and eligible for enhanced 90-percent Federal reimbursement;

   •   submitted the medical records and our sample results to our medical reviewer, a CMS
       physician and policy expert on family planning; and

   •   estimated the dollar impact of the unallowable Federal reimbursement claimed in the
       total population of 176,799 claims.

Appendix A contains the details of our sample design and methodology, and Appendix B
contains our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

New York State improperly claimed enhanced 90-percent Federal reimbursement for family
planning claims submitted by selected providers. Of the 105 claims in our sample, 50 qualified
as family planning services and could be claimed at the enhanced 90-percent Federal
reimbursement rate. However, the remaining 55 could not be claimed as family planning
services. Of those 55 claims, 51 were for services unrelated to family planning and 4 lacked
documentation. Based on our sample results, we estimated that the State received $3,773,506 in
unallowable Federal Medicaid reimbursement. This overpayment occurred because selected
providers incorrectly claimed services as family planning and the State’s MMIS edit routines did
not adequately identify claims unrelated to family planning.




                                               4
SERVICES UNRELATED TO FAMILY PLANNING

According to section 4270 of the manual, family planning services prevent or delay pregnancy or
otherwise control family size. The manual states that only items and procedures clearly
furnished or provided for family planning purposes may be claimed at the enhanced 90-percent
rate of Federal reimbursement. However, for 51 of the 105 claims in our sample, we determined
that the billed services were unrelated to family planning. Of the 51 claims, 14 were not eligible
for any Federal Medicaid reimbursement and 37 were eligible for reimbursement at the
applicable FMAP rate of 50 percent.

Of the 14 services not eligible for any Federal Medicaid reimbursement, 5 services were abortion
procedures and 9 were services related to preoperative abortion examinations. Pursuant to
Federal regulations (42 CFR, part 441, subpart E), Federal reimbursement at the standard FMAP
rate is available for abortions only when a physician has certified in writing to the Medicaid
agency that the life of the mother would be endangered if the fetus were carried to term. This
certification was not present in any of the 5 cases.

Thirty-seven claimed services were eligible for reimbursement at the applicable FMAP rate of
50 percent, including services to pregnant, sterilized, and perimenopausal women, pregnancy
testing, colposcopy examinations, and treatment of infections.

NO DOCUMENTATION

Section 1902(a)(27) of the Act and Federal regulations (42 CFR §§ 431.17 and 433.32) require
that services claimed for Federal Medicaid reimbursement be documented. For 4 of the 105
claims in our sample, the provider could not provide documentation to support the service billed.
Therefore, Federal Medicaid reimbursement was not available for these four claims.

CAUSES OF THE OVERPAYMENTS

We identified two main causes of the overpayment: improperly coded claims and inadequate
MMIS edit routines.

Improperly Coded Claims

For all 51 sampled claims unrelated to family planning, selected providers incorrectly coded the
Medicaid claim form by marking “Yes” in the family planning indicator field. 3 In addition, for
five of these claims that were abortion procedures, the provider left the abortion/sterilization
field blank. 4 Although the 51 claims were unrelated to family planning, the MMIS categorized
these claims as family planning and eligible for enhanced 90-percent Federal reimbursement.
Officials at the selected providers stated that they believed that nearly all the services they
provide are related to family planning. Specifically, 6 of the 14 selected providers coded
3
    DOH considers all claims with a “Yes” in the family planning indicator field to be related to family planning.
4
 For claims marked “A,” “B,” “C,” or “D” in the abortion/sterilization field, the MMIS denied the claims and sent
them back to the provider for clarification because abortion procedures are not considered family planning services.


                                                             5
approximately 99 percent of their claims as family planning during our audit period. However,
the medical review determined that the providers improperly claimed, for example, services to
pregnant, sterilized, and perimenopausal women; treatment for sexually transmitted diseases; and
preabortion counseling visits unrelated to family planning services.

Inadequate Medicaid Management Information System Edit Routines

The MMIS’s edits did not always correctly identify claims for enhanced 90-percent Federal
reimbursement. The design of the computer edits in the MMIS was such that the presence of a
“Yes” in the family planning indicator field was the only element needed for the system to
classify a claim as family planning. As noted above, all 51 claims in error contained a “Yes” in
the family planning indicator field, yet none of the claimed services related to family planning.

ESTIMATION OF THE UNALLOWABLE AMOUNT

Of the 105 claims in our statistical sample, 50 qualified as family planning services eligible for
Federal Medicaid reimbursement at the 90-percent rate. However, the remaining 55 sample
claims were improperly paid at the 90-percent rate. Of the 55 claims, 18 were not eligible for
any Federal Medicaid reimbursement and 37 were eligible for reimbursement at the applicable
FMAP rate of 50 percent. Based on the results of our sample, we estimated that the State
improperly received $3,773,506 in Federal Medicaid reimbursement. The details of our sample
results and estimates are shown in Appendix B.

RECOMMENDATIONS

We recommend that the State:

   •   refund $3,773,506 to the Federal Government and

   •   consider the results of this review in its evaluation of our prior recommendations to
       ensure that providers only bill as family planning those services directly related to family
       planning and ensure that MMIS edits appropriately identify claims that are ineligible for
       enhanced 90-percent Federal reimbursement.

NEW YORK STATE COMMENTS

In its comments on our draft report, the State agreed with our recommendations and described
corrective actions that it planned to take. The State’s comments are included in their entirety as
Appendix C.




                                                 6
APPENDIXES
                                                                                 APPENDIX A
                                                                                   Page 1 of 2

                        SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was Medicaid outpatient clinic claims billed by New York State at the 90-percent
Federal reimbursement rate for family planning services submitted by selected providers during
our April 1, 2007, through September 30, 2008, audit period.

SAMPLING FRAME

The sampling frame was a computer file containing 176,799 Medicaid claims for services billed
as family planning at 90-percent Federal reimbursement by selected providers during our review
period. The total Medicaid reimbursement for the 176,799 claims was $19,048,754
($17,143,041 Federal share). The Medicaid claims were extracted from the paid claims’ files
maintained at the Medicaid Management Information System fiscal agent.

SAMPLE UNIT

The sample unit was an individual Medicaid claim for a service billed as family planning by a
selected provider at the enhanced Federal reimbursement rate of 90 percent.

SAMPLE DESIGN

We used stratified random sampling to evaluate the population of Medicaid claims submitted by
selected providers. To accomplish this, we separated the sampling frame into two strata as
follows:

   •   Stratum 1: Claims with a Federal share payment amount from $0.01 to $250.00–
       176,794 claims.

   •   Stratum 2: Claims with a Federal share payment amount greater than $250.00–
       5 claims.

SAMPLE SIZE

We selected a sample size of 105 claims as follows:

   •   100 claims from the first stratum and

   •   5 claims from the second stratum.
                                                                                APPENDIX A
                                                                                  Page 2 of 2

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software, RAT-
STATS. We used the random number generator for our sample.

METHOD OF SELECTING SAMPLE ITEMS

We sequentially numbered the 176,794 claims in stratum 1. After generating 100 random
numbers for stratum one, we selected the corresponding frame items. All the claims in stratum
two were selected. We created a list of the 105 sample items.

TREATMENT OF MISSING SAMPLE ITEMS

The sample item was considered an error if no supporting documentation could be found.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at the 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.
                                                                             APPENDIX B


                        SAMPLE RESULTS AND ESTIMATES

                               Sample Details and Results
                                                                               Value of
                        Value of                  Value of                    Unallowable
                         Frame                     Sample                       Claims
Stratum    Claims in    (Federal      Sample      (Federal     Unallowable     (Federal
Number      Frame        Share)        Size        Share)        Claims         Share)

1. ≤$250   176,794      $17,141,405       100    $9,430                50       $2,631

2. >$250         5            1,636         5     1,636                 5        1,636
  Totals   176,799      $17,143,041       105   $11,066                55       $4,267




                                         Estimates
                 (Limits Calculated for a 90-Percent Confidence Interval)

                        Point Estimate:           $4,653,192
                        Lower Limit:              $3,773,506
                        Upper Limit:              $5,532,878
APPENDIX C
  Page 1 of 2
APPENDIX C
  Page 2 of 2
